EVALUATION REPORT

           REDACTED VERSION
  Office of the Inspector General Information
  System Security Evaluation of Region III -
                    Lisle, IL

       OIG-09-A-15 September 28, 2009




All publicly available OIG reports are accessible through
                    NRC’s Web site at:
http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
             OFFICIAL USE ONLY




      Office of the Inspector General
Information System Security Evaluation of
            Region III – Lisle, IL




    Contract Number: GS-00F-0001N
     Delivery Order Number: 20291

          September 21, 2009




                     .
EXECUTIVE SUMMARY


BACKGROUND

           The U.S. Nuclear Regulatory Commission (NRC) has four regional offices that conduct
           inspection, enforcement, investigation, licensing, and emergency response programs for
           nuclear reactors, fuel facilities, and materials licensees. The Region III office operates
           under the direction of a Regional Administrator and is located in Lisle, Illinois. The
           region covers a seven-State area, including six States with nuclear power plants. Region
           III also regulates all Federal facilities that hold materials licenses in all regions. In
           addition, Region III oversees materials licensees in Missouri, which is part of Region IV.

           On December 17, 2002, the President signed the E-Government Act of 2002, which
           included the Federal Information Security Management Act (FISMA) of 2002. FISMA
           outlines the information security management requirements for agencies, which include
           an annual independent evaluation of an agency’s information security program1 and
           practices to determine their effectiveness. This evaluation must include testing the
           effectiveness of information security policies, procedures, and practices for a
           representative subset of the agency’s information systems. FISMA also requires
           assessment of compliance with FISMA requirements and related information security
           policies, procedures, standards, and guidelines. FISMA requires the annual evaluation to
           be performed by the agency’s Inspector General or by an independent external auditor.

           The NRC Office of the Inspector General (OIG) requested that the four NRC regional
           offices and the Technical Training Center (TTC) be included in the independent
           evaluation of the agency’s implementation of FISMA for fiscal year 2009. Information
           security policies, procedures, and practices at the regional offices and the TTC were last
           assessed in 2003 and 2006. This report describes evaluation findings for Region III.




1
    For the purposes of FISMA, the agency uses the term “information system security program.”
PURPOSE

      The objectives of the information system security evaluation of Region III were to:

             Evaluate the adequacy of NRC’s information security program and practices for
              NRC automated information systems as implemented at Region III.
             Evaluate the effectiveness of agency information security control techniques as
              implemented at Region III.
             Evaluate corrective actions planned and taken as a result of previous OIG
              evaluations.

RESULTS IN BRIEF

      Region III has made improvements in its implementation of NRC’s information system
      security program and practices for NRC automated information systems since the
      previous evaluations in 2003 and 2006. All corrective actions from the previous
      evaluations have been implemented. However, the information system security program
      and practices are not always consistent with the NRC’s automated information systems
      security program as defined in Management Directive (MD) and Handbook 12.5, NRC
      Automated Information Systems Security Program, other NRC policies, FISMA, and
      National Institute of Standards and Technology (NIST) guidance. While many of the
      Region III automated and manual security controls are generally effective, some security
      controls need improvement. Areas needing improvement included: continuity of
      operations and emergency planning, and configuration management. Specifics cannot be
      presented in this publicly released version of the report.


RECOMMENDATIONS

      This report makes recommendations to the Executive Director for Operations to improve
      NRC’s information system security program and implementation of FISMA at Region
      III.
